APPENDIX

APPENDIX
Opinion of the Eleventh Circuit Court of Appeals,
United States v. Anthony Jerome Billings, Jr.,
829 F. App’x 461 (11th Cir. Oct 2, 2020) ........................................................ A-1
Judgment imposing sentence ......................................................................... A-2

A-1

United States v. Billings, 829 Fed.Appx. 461 (2020)

Procedural Posture(s): Appellate Review.
829 Fed.Appx. 461
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.

West Headnotes (2)
[1]

Defendant's argument that his prior Florida
conviction for sale of cocaine did not constitute
a controlled substance offense because relevant
Florida statute lacked a mens rea requirement
was foreclosed by circuit precedent, and thus
imposition of sentence based on career offender
guideline was warranted at sentencing of
defendant, convicted of one count of possession
with intent to distribute a controlled substance
and one count of possession of a firearm by a
convicted felon; prior panel decision foreclosing
defendant's argument had not been overruled
by Court of Appeals sitting en banc, or by
Supreme Court, so prior panel decision applied.

UNITED STATES of America, Plaintiff-Appellee,
v.
Anthony Jerome BILLINGS,
Jr., Defendant-Appellant.
No. 19-13753
|
Non-Argument Calendar
|
(October 2, 2020)
Synopsis
Background: Defendant was convicted in the United States
District Court for the Southern District of Florida, No. 9:19cr-80079-DMM-1, Donald M. Middlebrooks, J., of one count
of possession with intent to distribute a controlled substance,
and one count of possession of a firearm by a convicted
felon. Defendant was sentenced as a career offender to 144
months' imprisonment on the controlled substance count, and
120 months' imprisonment, to run concurrent, on the firearm
count. Defendant appealed.

Holdings: The Court of Appeals held that:
[1] defendant's argument that his prior Florida conviction
for sale of cocaine was not a controlled substance offense,
for purposes of career offender sentencing guideline, was
foreclosed by circuit precedent, and
[2] any error that arose when district court determined
defendant was a career offender based on his Florida
conviction for aggravated assault was invited error,
precluding defendant's claim that determination was plain
error.
Affirmed.

Courts
Number of judges concurring in
opinion, and opinion by divided court

18 U.S.C.A. § 922(g)(1); Comprehensive
Drug Abuse Prevention and Control Act of 1970
§ 401,

21 U.S.C.A. §§ 841(a)(1),

(1)(B)(iii);

[2]

841(b)

U.S.S.G. § 4B1.1.

Criminal Law

Issues considered

Criminal Law

Estoppel or Waiver

Any error that arose when district court
determined that defendant was a career offender
based on his prior conviction for aggravated
assault with a firearm under Florida statute
was invited by defendant, precluding defendant's
appeal asserting that district court's conclusion
that prior conviction qualified as a crime of
violence was plain error, when sentencing
defendant convicted of one count of possession
with intent to distribute a controlled substance
and one count of possession of a firearm
by a convicted felon; in his plea agreement,
defendant agreed that his prior conviction
constituted a predicate offense, affirming this
during plea colloquy hearing, and defendant
explicitly stated at sentencing that he was not
objecting to prior conviction constituting career
offender predicate.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18 U.S.C.A. § 922(g)
1

United States v. Billings, 829 Fed.Appx. 461 (2020)

(1); Comprehensive Drug Abuse Prevention and

We review de novo whether a prior conviction is a “controlled

Control Act of 1970 § 401,

substance offense” under
U.S.S.G § 4B1.2(b).
United
States v. Lange, 862 F.3d 1290, 1293 (11th Cir. 2017).

§§ 841(a)(1),

21 U.S.C.A.

841(b)(1)(B)(iii);

Ann. § 784.021;

Fla. Stat.

U.S.S.G. § 4B1.1.

Attorneys and Law Firms
*462 Laura Thomas Rivero, Lisa A. Hirsch, Emily M.
Smachetti, U.S. Attorney Service - Southern District of
Florida, U.S. Attorney Service - SFL, Miami, FL, for
Plaintiff-Appellee
Scott G. Berry, Assistant Federal Public Defender, Michael
Caruso, Federal Public Defender, Federal Public Defender's
Office, West Palm Beach, FL, for Defendant-Appellant
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 9:19-cr-80079-DMM-1
Before GRANT, LUCK, and ANDERSON, Circuit Judges.
Opinion
PER CURIAM:
Anthony Billings Jr. appeals his 144-month sentence for
one count of possession with intent to distribute a controlled
substance, in violation of 21 U.S.C. §§ 841(a)(1), (b)(1)
(B)(iii), and his concurrent 120-month sentence on one count
of possession of a firearm by a convicted felon, in violation
of 18 U.S.C. § 922(g)(1). Specifically, Billings appeals the
district court's determination that he was a career offender
under U.S.S.G. § 4B1.1 based on his prior convictions, and
the consequent sentence enhancement.

I.
[1] On appeal, Billings argues that his prior conviction for
sale of cocaine does not constitute a “controlled substance
offense” because the relevant Florida statute lacks a mens
rea requirement regarding the illicit nature of the controlled
substance. Billings concedes that Eleventh Circuit law is
contrary to his own position but argues that the law is wrongly
decided.

*463 A defendant is a career offender if: (1) the defendant
is at least 18 years old at the time of the instant offense of
conviction; (2) the instant offense of conviction is either a
“crime of violence” or a “controlled substance offense;” and
(3) the defendant has at least two prior convictions of either
a “crime of violence” or a “controlled substance offense.”
U.S.S.G. § 4B1.1(a). A “controlled substance offense” is
an offense under federal or state law, punishable by more than
one year of imprisonment, that prohibits the manufacture,
import, export, distribution, or dispensing of a controlled
substance, or possession of a controlled substance, with
intent to manufacture, import, export, distribute, or dispense.
U.S.S.G. § 4B1.2(b).
In

United States v. Smith, we held that a conviction under
Fla. Stat. § 893.13 constitutes a “controlled substance

offense,” under
U.S.S.G. § 4B1.2(b).
775 F.3d 1262,
1268 (11th Cir. 2014). Furthermore, the definition of
“controlled substance offense” under
U.S.S.G. § 4B1.2(b)
does not require “that a predicate state offense includes an
element of mens rea with respect to the illicit nature of
the controlled substance.”
Id.; see also United States v.
Pridgeon, 853 F.3d 1192, 1200 (11th Cir. 2017) (rejecting the
argument that

Smith was wrongly decided and affirming

Smith's holding that convictions under
Fla. Stat. §
893.13 qualify as “controlled substance offenses” under the
Sentencing Guidelines).
We are bound by prior panel decisions unless or until we
overrule them while sitting en banc or they are overruled by
the Supreme Court. United States v. Jordan, 635 F.3d 1181,
1189 (11th Cir. 2011); see also
United States v. Bishop,
940 F.3d 1242, 1253-54 (11th Cir. 2019) cert. denied, –––
U.S. ––––, 140 S. Ct. 1274, 206 L.Ed.2d 259 (2020) (holding
that we are bound by

Smith until it is properly overruled).

Here, Billings's argument that his prior conviction for sale
of cocaine under

Fla. Stat. § 893.13 was not a “controlled

substance offense” under

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

U.S.S.G. § 4B1.2(b) because

2

United States v. Billings, 829 Fed.Appx. 461 (2020)

the state law lacked a mens rea element is foreclosed by
our decision in

Smith. See Pridgeon, 853 F.3d at 1200.

We are bound by our holding in

Smith under the prior

precedent rule. See
Bishop, 940 F.3d at 1253-54. Thus,
the district court did not err in determining that Billings's
prior conviction under Fla. Stat. § 893.13 was a “controlled
substance offense.” Accordingly, we affirm the district court's
determination.

or invites the district court into making an error.”
United
States v. Stone, 139 F.3d 822, 838 (11th Cir. 1998). “Where
invited error exists, it precludes a court from invoking the
plain error rule and reversing.”
United States v. Silvestri,
409 F.3d 1311, 1327 (11th Cir. 2005).

II.
[2] Billings argues that the district court improperly
determined he was a career offender based in part on
its finding that his prior conviction for aggravated assault
under
Fla. Stat. § 784.021 was a “crime of violence”
because that statute did not require an intentional mens rea
and allowed conviction under a reckless disregard standard.
Billings again concedes that his argument is foreclosed by
Eleventh Circuit precedent, but he contends that United States
v. Golden, 854 F.3d 1256 (11th Cir. 2017), and
Turner
v. Warden Coleman FCI, 709 F.3d 1328 (11th Cir. 2013), were
wrongly decided because those decisions failed to use the
determination and construction of the elements of the state
offense by Florida courts when they applied a categorical
approach.
We review de novo whether a defendant's prior conviction
qualifies as a “crime of violence” under
U.S.S.G §
4B1.2(a). See United States v. Rosales-Bruno, 676 F.3d 1017,
1020 (11th Cir. 2012). However, when a defendant fails to
object to an error before the district court, we review the
argument for plain error. *464 United States v. Hall, 314
F.3d 565, 566 (11th Cir. 2002). To establish plain error, the
defendant must show an error: (1) that is not intentionally
relinquished or abandoned, (2) that is plain, and (3) that
affected substantial rights. United States v. Corbett, 921 F.3d
1032, 1037 (11th Cir. 2019) (citing
Molina-Martinez v.
United States, ––– U.S. ––––, 136 S. Ct. 1338, 1343, 194
L.Ed.2d 444 (2016)). When these conditions are met, we may
only exercise our discretion to notice the error “if the error
seriously affects the fairness, integrity, or public reputation of
judicial proceedings.” Id. (citing
Ct. at 1343).

We will not conduct plain error review when a party invites
error by the district court. See United States v. Love, 449 F.3d
1154, 1157 (11th Cir. 2006) (citing United States v. Ross,
131 F.3d 970, 988 (11th Cir. 1997)) (“It is a cardinal rule of
appellate review that a party may not challenge as error a
ruling or other trial proceeding invited by that party.”). “The
doctrine of invited error is implicated when a party induces

Molina-Martinez, 136 S.

The Sentencing Guidelines define a “crime of violence” as:
any offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that—
(1) has as an element the use, attempted use, or threatened
use of physical force against the person of another, or
(2) is murder, voluntary manslaughter, kidnapping,
aggravated assault, a forcible sex offense, robbery, arson,
extortion, or the use or unlawful possession of a firearm
described in
26 U.S.C. § 5845(a) or explosive material
as defined in 18 U.S.C. § 841(c).
U.S.S.G. § 4B1.2(a).
Under Fla. Stat. § 784.021, “[a]n ‘aggravated assault’ is an
assault: (a) With a deadly weapon without intent to kill; or (b)
With an intent to commit a felony.” Fla. Stat. § 784.021. An
assault is defined as “an intentional, unlawful threat by word
or act to do violence to the person of another, coupled with an
apparent ability to do so, and doing some act which creates a
well-founded fear in such other person that such violence is
imminent.”

Fla. Stat. § 784.011.

In
Turner, we held that
Fla. Stat. § 784.021
qualifies as a “violent felony” under the ACCA's elements
clause.
Turner, 709 F.3d at 1337-38 (concluding that
Florida aggravated assault “will always include as an element
the ... threatened use of physical force against the person
of another ...”). Furthermore, an assault carried out with
a deadly weapon, such as a firearm, is “included in ‘the
generic crime of “aggravated assault” so as to qualify as
a “crime of violence” ’ or a violent felony for purposes

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Billings, 829 Fed.Appx. 461 (2020)

of sentencing.”
Id. at 1338 n.6 (quoting
United
States v. Palomino Garcia, 606 F.3d 1317, 1331-32 (11th Cir.
2010)). Even though

Turner addressed the elements

clause of the ACCA,

18 U.S.C. § 924(e)(2)(B)(i), that

clause is identical to the elements clause of

U.S.S.G. §

4B1.2(a)(1); thus,

Fla. Stat. §

Turner is binding as to

784.021 constituting a “crime of violence” under U.S.S.G.
§ 4B1.2(a). United States v. Golden, 854 F.3d 1256, 1257
(11th Cir. 2017); see also United States v. Deshazior, 882
F.3d 1352, 1355 (11th Cir. 2018), cert. denied, ––– U.S.
––––, 139 S. Ct. 1255, 203 L.Ed.2d 275 (2019) (stating that

he now claims was error. In his plea agreement, Billings
agreed that his prior conviction for aggravated assault with
a firearm constituted a predicate offense and helped qualify
him as a career offender under
U.S.S.G. § 4B1.1. During
the plea colloquy, Billings affirmed that his prior conviction
for aggravated assault helped qualify him as a career offender.
Finally, at his sentencing hearing, Billings explicitly stated he
was not raising an objection concerning his prior aggravated
assault conviction constituting a career offender predicate.
Thus, Billings is precluded from claiming on appeal that the
district court erred in determining that his prior conviction
for aggravated assault qualified as a “crime of violence.” See
Silvestri, 409 F.3d at 1327. 1

Turner forecloses any argument that
Fla. Stat. §
784.021 is not a violent felony). The prior panel precedent

AFFIRMED.

rule dictates that, even if
Turner is flawed, *465 we,
as a later panel, do not have the authority to disregard it. See
Golden, 854 F.3d at 1257.

All Citations
829 Fed.Appx. 461

We do not reach the merits of Billings’ argument because
he invited or induced the district court's determination that

Footnotes
1

Although Billings clearly invited an error, his challenge would have been foreclosed in this circuit in any
event by our

End of Document

Turner decision.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

A-2

Case 9:19-cr-80079-DMM Document 25 Entered on FLSD Docket 09/13/2019 Page 1 of 6
USDC FLSD 2458 (Rev.09/08)-JudgnentinaCrimi
nalCase

Pagel0t
-6

U N IT E D ST A T E S D IST R TC T C O U R T
Southern D istrictofFlorida
W estPalm Beach Division

UNITED STATES OF AM ERICA

JUD GM ENT IN A CR IM IN AL CA SE

V ..

ANTH ONY JEROM E BILLINGS

Case N um ber:19-80079-CR -M IDD LEBR O O K S
USM Num ber:20015-104
CounselForD efendant:ScottBerry
CounselForTheUnited States:A dam M cM ichael
CourtReporter:DianeM iller

Thedefendantpleadedguiltytocountts)OneandTwq.
Thedefendantisadjudicatedguiltyoftheseoffenses:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE
EN D ED

21U.S.C.j
Possessionwithintenttodistributeatleast28gramsof 01/01/2001
841(a)(1),(b)(1)(B)
cocainebase
18U.S.C.j922(g)(1)and Possessionofafirearm b
j924(a)(2)
yaconvidedfelon
01/01/2001

COUNT

1

2

The defendantis sentenced asprovided in the following pages of thisjudgment.The sentence is imposed
pufsuanttothe Sentencing Reform Actof1984.
AIIrem aining countsare dismissed on them otion ofthegovernment.
It is ordered that the defendant mustnotify the United States attorney for this district within 30 days of any
change ofnam e,residence,orm ailing addressuntilal1fines,restitution,costs,and specialassessm ents imposed

bythisjudgmentarefullypaid.Iforderedtopayrestitution,thedefendantmustnotifythecoul'tandUnitedStates
attorney ofm aterialchangesin economiccircumstances.

'

DateofIm pos''n ofS ntence:9/12/2019
/
f.

bonad M .M iddlebrooks
U nited States D istrictJudge

Date:

:/,s'/vg

Case 9:19-cr-80079-DMM Document 25 Entered on FLSD Docket 09/13/2019 Page 2 of 6
USDCFLSD2458(Rev.09/08)-JudgmentinaCriminalCase

Page2of6

D EFEN DA N T:A N TH O N Y JER O M E BILLIN G S
CA SE N UM BER :19-80079-CR -M ID DLEBR O O K S

IM PRISONM ENT
The defendantishereby com mitted to the custody ofthe United StatesBureau ofPrisonsto be imprisoned fora

totalterm of ONE HUNDRED FORTY-FOUR (144) M ONTHS.This term consists of One Hundred
FortpFour(144)monthsasto CountOneand OneHundred Twenty (120)monthsastoCountTwo,tobe
served concurrendy to CountOne.

'

Thecourtmakesthefollowing recom m enditionsto theBureau ofPrisons:
1. The D efendant be designated to a facility in or as close to Palm Beach C ounty, Florida as
possible.

Thedefendantisrem ahded to thecustody oftheUnited StatesM arshal.
R ETU RN

Ihaveexecutedthisjudgmentasfollows:

Defendantdelivered on

at

to

,withacertifiedcopyofthisjudgment.

U N ITED STA TES M A RSHA L

D EPU TY UN ITED STA TES SDVRSH AL

Case 9:19-cr-80079-DMM Document 25 Entered on FLSD Docket 09/13/2019 Page 3 of 6
USDC FLSD 2458 (Rev.09/08)-JudgmentinaCrimi
nalCase

.

Page3of6

D EFEN D AN T:AN TH O N Y JER O M E BILL IN G S
CA SE N UM BER :19-80079-CR -M ID D LEBR O O K S
SUPE RV ISED R ELEA SE

Upon releasefrom imprisonment,the defendantshallbe on supervised releaseforaterm ofFW E (5)YEARS.Thisterm
consistsofFive(5)yearsasto CountOneandThree(3)yearsastoCountTwo,to run concurrently.
The defendantm ustrepol'
tto theprobation office in the districtto which thedefendantisreleased within 72 hoursofrelease
from the custody ofthe Bureau ofPrisons.
Thedefendantshallnotcom mitanotherfederal,stateorlocalcrime.
The defendantshallnotunlawfully possessa controlled substance.The defendantshallrefrain from any unlawfuluse ofa
controlled substance.The defendantshallsubmitto one drug testwithin 15 daysofrelease from im prisonmentand atleast
two periodic drug teststhereafter,asdetermined by the court.
Thedefendantshallcooperatein the collection ofDNA asdirected by the probation offlcer.
The defendantshallnotpossessa llrearm ,am m unition,destructivedevice,orany otherdangerousweapon.

Ifthisjudgmentimposesafineorrestitution,itisacondition ofsupervisedreleasethatthedefendantpayin accordance
withtheScheduleofPaymentssheetofthisjudgment.
Thedefendantm ustcom ply w ith the standard conditionsthathave been adopted by thiscourtaswellaswith any additional
conditionson the attached page.

STA ND A RD C O N DITIO N S O F SUPERV ISIO N

Thedefendantshallnotleavethejudicialdistrictwithoutthepennissionofthecourtorprobationoftker;

Thedefendantshallreporttotheprobationofficerandshallsubmitatruthftlland completewritten reportwithin theflrstfifteen
daysofeach month;
'
Thedefendantshallanswertruthfully a1linquiriesbytheprobation ofticerandfollow theinstructionsoftheprobation officer;
Thedefendantshallsuppol'
thisorherdependentsand meetotherfamily.
responsibilities;
Thedefendantshallw orkregularlyatalawfuloccupation,unlessexcusedby theprobation ofticerforschooling,training,or
Otheracceptablereasons'
,
'
Thedefendantshallnotify theprobation officeratleastten dayspriortoany changeinrejidenceoremployment;
Thedefendantshallrefrain from excessiveuseofalcoholandshallnotpurchase,possess,use,distribute,oradministerany
controlledsubstanceoranyparaphernaliarelatedto anycontrolled substances,exceptasprescribedby aphysician;
8. Thedefendantshallnotfrequùntplaceswherecontrolledsubstancesareillegally sold,used,distributed,oradministered;
9. Thedefendantshallnotassociatewith anypersonsengaged in criminalactivity andshallnotassociatewithanyperson
convicted ofafelony,unlessgranted permissionto dosoby theprobation officer;
l0. Thedefendansshallpenuitaprobation oftk ertovisithim orheratany tim eathom eorelsew hereand shallperm itconfiscation
ofany contraband obserked in plain view oftheprobation officer;
'
11. Thedefendantshallnotify theprobation officerwithin seventptwohoursofbeing arrestedorquestioned by alaw enforcement
oftk er;
12. Thedefendantshallnotenterintoany agreementto actasan informeroraspecialagentofalaw enforcementagency without

thepirmission ofthecourt;and
13. Asdirectedbytheprobation oftlcer,thedefendantshallnotifythkd partiesofrisksthatmay beoccasioned bythedefendant's
criminalrecord orpersonalhistoly orcharacteristicsand shallpermittheprobation officertomakesuchnotificationsand to
confirm thedefendant'scompliancewith such notifcationrequirement.

Case 9:19-cr-80079-DMM Document 25 Entered on FLSD Docket 09/13/2019 Page 4 of 6
USDCFLSD2458(Rev.09/08)-JudgmentinaCriminalCase

'

Page4of6

DEFENDAN T:ANTH ONY JEROM E BILLINGS

CASE NUMBER:19-80079-CR-M IDDLEBFOOKS
SPECIAL CONDITIONS OF SUPERVISION

AngerControl/D om esticViolence-Thedefendantsha'11participate in an approved treatmentprogram foranger
control/dom esticviolence.Participation m ay includeinpatient/outpatienttreatm ent.Thedefendantwillcontribute

tothecostsofseryicesrendered(co-payment)basedonabilitytopay oravailabilityofthirdpartypayment.
M entalHea1th Treatment-The defendantshallparticipatein an approved inpatient/outpatientmentalhealth

treatmentprogram.Thedefendmltwillcontributetothecostsofservicesrendered(co-payment)basedonability
to pay oravailability ofthirdparty payment.

Perm issible Search -The defendantshallsubm itto asearch ofhis/herperson orproperty conducted in a
reasonable mannerand atareasonabletim eby theU .S.Probation Officer.
SubstanceAbuseTreatment-The defendantshallparticipatein an approvéd treatm entprogrnm fordnzgand/or
alcoholabuseand abideby allsupplem entalconditionsof'
treatment.Participation m ay include

inpatient/outpatienttreatment.Thedefendantwillcàntributetothecostsofservicesrendered (co-payment)based
on ability to pay oravailability ofthird pat'
typaym ent.

SupportofDependents-Thedefendantshallsupporthisorherdependentts).
Unpaid Restitution,Fines,orSpecialAssessm ents-Ifthe defendanthasany unpaid am ountofrestitution,fines,
orspecialassessments,thedefendantshallnotifytheprobation offcerofany materialchange in the defendant's
economic circum stancesthàtmightaffectthe defendant'sability topay.
.

Case 9:19-cr-80079-DMM Document 25 Entered on FLSD Docket 09/13/2019 Page 5 of 6
USDCFLSD2458(Rev.09/08)-Judgmenti
naCriminalCase

.

Page5of6

D EFEN D AN T:AN TH O N Y JER O M E BIL LIN G S
CA SE N UM BER:19-80079-CR -M ID D LEBR O O K S

CRIM INAL M ONETARY PENALTIES
Thedefendantm ustpay thetotalcdminalm onetarypenaltiesunderthe scheduleofpaym entson Sheet.6.
A ssessm ent
Fine
Restim tion

TOTALS

$200.00

$0.00

$0.00

If the defendant makes a partialgayment,each payee shallreceive an approximately proportioned

paym ent,unless specified otherw ise m the priority order or percentage paym ent colum n below .H ow ever,

pursuantto18U.S.C.j366441),al1nonfederalvictimsmustbepaid beforetheUnitedStatesispaid.
N AM E O F PA Y EE

T O TA L L O SSW

R ESTITU TIO N O R DER ED

* Fipdingsforthetotalam ountoflossesarerequired underChapters 109A ,119,1IOA,and 113A ofTitle 18 for
offensescom mitted on orafterSeptember13,1994,butbeforeApril23,1996.
**Assessmentdueimmediately unlessotherwiseorderedbythe Coulrt.

Case 9:19-cr-80079-DMM Document 25 Entered on FLSD Docket 09/13/2019 Page 6 of 6
!.
J.
i#ç7I
ïJ.
XE?7458(Rev.09/00 rpuqgmentinaCriminalCase

.

Page6of6

DEFENDANT:ANTH ONY JEROM E BILLINGS
CASE N UM BER:19-80079lCR-M lDDLEBRO OK S

SCHEDULE OF PAYM ENTS
Having assessed the defendant's ability to pay,paym ent of the total crim inalm onetary penalties is due as
follow s:

A.Lum p sum paym entof$200.00 dueim m ediately.
U nless the courthasexpressly ordered otherwise,ifthisjudgmentimposesi
mprisonment,paymentofcriminal
m onetary penalties is due during imprisonm ent.A11criminalm onetary penalties,exceptthose paym ents m ade
through the Federal Bureau of Prisons'Inm ate Financial Responsibility Program ,are m ade to the clerk of the
.

court.

The defendant shallreceive cm ditfor allpaym ents previously m ade toward àny criminalm onetary penalties
im posed.
Thisassessm ent/fne/restitution ispayableto the CLERK,UN ITED STATES COURTS and istobeaddressed to:
U .S.CLER K 'S O FFIC E

ATTN :FINANCIAL SECTION
400 N O R TH M IA M I A V ENU E,R O O M 08N 09
M IA M I,FL O RID A 33128-7716

The assessm ent/sne/restitution ispayable imm ediately.The U.S.Bureau of Prisons,U .S.Probation Office and
theU.S.Attorney'sOfûce areresponsibleforthe enforcem entofthisorder.

Defendantand Co-DefendantNamesandCaseNumbers(includingdefendantnumbçr),TotalAmotmt,Jointand
SevefalAmotmt,and correspondingpayee,ifappropri>te.
CA SE N UM BE R
D EFEND A NT A N D C O -DEFEN D A N T N A M E S

JO IN T A ND SEVE M L
TO TA L AM O U N T A M O UN T

(INCLUDING DEFENDANT NUM BER)

Paymentsshallbeappliedinthefollowingorder:(1)assessment,(2)restitutionprincipal,(3)restitution interest,
(4)tqneprincipal,(5)ûneinterest,(6)communityrestitution,(7)penalties,and(8)costs,includingcostof,
prosecution and courtcosts.

